1a
APPENDIX TABLE OF CONTENTS
Page
Third District: Memorandum Opinion.
Judgment Rendered April 19, 2018....
Notice: Tex. Sup. Ct. (pet. denied)........
Notice: Tex. Sup. Ct. (mot. reh. denied)
Constitutional & Statutory Provisions
Insurance Policy Language...................

2a
28a
29a
30a
31a
32a

2a
TEXAS COURT OF APPEALS,
THIRD DISTRICT, AT AUSTIN
NO. 03-17-00054-CV
Juan A. Martin-de-Nicolas,
Appellant
v.
AAA Texas County Mutual Insurance
Company,
Appellee

FROM COUNTY COURT AT LAW NO. 2
OF TRAVIS COUNTY
NO. C-l-CV-16-003312,
HONORABLE JOE CARROLL,
JUDGE PRESIDING
MEMORANDUM OPINION
Juan A. Martin-de-Nicolas sued his insurer AAA
Texas County Mutual Insurance Company (“AAA”)
in justice court after AAA, despite his protestations,
settled a claim pertaining to a car accident that Martin-de-Nicolas was involved in. AAA filed a motion
for summary judgment arguing that the terms of the
insurance policy issued to Martin-de-Nicolas author­
ized it to make the settlement, and the justice court
granted the motion for summary judgment. Martinde-Nicolas appealed to the county court at law, and
AAA filed another motion for summary judgment ar­
guing that the settlement was proper. The county

3a
court at law granted AAA’s motion for summary
judgment. In several issues on appeal, Martin-deNicolas contends that the county court at law erred
by granting AAA’s motion for summary judgment.
We will affirm the order of the county court at law
granting AAA’s motion for summary judgment.
[page 2]

BACKGROUND
This appeal stems from a car accident involving
Martin-de-Nicolas in which Martin de-Nicolas’s car
hit a parked vehicle belonging to Rex Jones. After
the accident, Martin-de-Nicolas’s insurer, AAA, set­
tled a claim made by Jones pertaining to the acci­
dent.
As a result of the car accident, Martin-de-Nicolas
filed two separate lawsuits. The first lawsuit was
against Jones and was filed in justice court. See Mar­
tin-de-Nicolas v. Jones, No. 03-13-00318-CV, 2014
WL 4414827 (Tex. App.—Austin Aug. 28, 2014, pet.
dism’d w.o.j.)(mem. op.). In that suit, Martin-deNicolas argued that Jones parked his vehicle in a
negligent manner by parking the car facing oncom­
ing traffic and that Jones’s actions violated relevant
governing laws and caused the accident. See Tex.
Transp. Code § 545.303(a) (providing that driver
“who stops or parks on a two-way roadway shall do
so with the right-hand wheels of the vehicle parallel
to . . . the right-hand curb or edge of the roadway”).
After a trial in justice court, the jury determined that
Jones was not negligent, that Martin-de-Nicolas
“was negligent and was one hundred percent at fault
for causing the crash,” and that Martin-de-Nicolas
“should recover zero damages.” See Jones, 2014 WL
4414827, at *1. Martin-de-Nicolas then sought to ap-

4a
peal to the county court at law, but the county court
at law dismissed the suit for lack of jurisdiction on
the ground that Martin-de-Nicolas’s appeal bond was
not timely filed. See Tex. R. Civ. P. 506.1 (setting out
procedure for appealing from judgment rendered by
justice court). Martin-de-Nicolas then appealed to
this Court, and this Court affirmed “the judgment
dismissing appellant’s appeal to the county court at
law for want of jurisdiction.” See Jones, 2014 WL
4414827, at *4.
The second suit was filed by Martin-de-Nicolas
against AAA, was similarly filed injustice court, and
was stayed pending final resolution of the first suit.
In the second suit, Martin[page 3]
de-Nicolas alleged that he instructed AAA to refuse
to pay any damage claim that Jones made because
Jones parked his car in a negligent and illegal man­
ner, that AAA “falsely attributed fault to” Martin-deNicolas “in order to preemptively vacate their duty to
defend” him “in the event that.. .Jones filed a suit to
recover damages,” that AAA’s actions were inconsis­
tent with its “express warrant[y] made in their liabil­
ity policy” stating that AAA will only pay for dam­
ages for which the policy holder is legally liable, and
that AAA’s actions constituted fraud and were viola­
tions of the Deceptive Trade Practices Act and of
chapter 541 of the Insurance Code. In response, AAA
filed a combined traditional and no-evidence motion
for summary judgment contending that Martin-deNicolas “failed to state a claim on which he can re­
cover” because “no recognized cause of action in
common law fraud,” in the Deceptive Trade Practices
Act, or in “Chapter 541 applies to this set of facts” in
which the express terms of the insurance policy allow

5a
AAA to settle claims, including the one at issue, that
it deemed appropriate. Alternatively, AAA asserted
that there was no evidence that AAA committed
fraud, “violated the Texas Deceptive Trade Practices
Act, or violated Chapter 541of the Insurance Code”
in this case. After reviewing the motion for summary
judgment and the various responses, the justice
court issued an order granting AAA’s motion.
Following that ruling, Martin-de-Nicolas ap­
pealed to the county court at law. In response, AAA
filed another combined traditional and no-evidence
motion for summary judgment. When referring to
Martin-de-Nicolas’s petition filed in the justice
court,1 AAA repeated its assertion that the basis for
Martin-de-Nicolas’s suit is not supported by the lan­
guage of the policy and also
1 The record does not contain a petition that was filled in the
county court at law, and Martin de-Nicolas asserts in his appel­
late briefing that his petition “from JP Court carrie [d] forward
to County Court.”

[page 4]
repeated its contention that there was no evidence of
fraud or any violation of the Deceptive Trade Prac­
tices Act or the Insurance Code. AAA attached to its
motion for summary judgment a copy of the insur­
ance policy purportedly issued to Martin-de-Nicolas
by AAA for the time in question.
After reviewing the motion, Martin-de-Nicolas
filed a response asserting that AAA failed to comply
with various discovery requests, that the insurancepolicy language relied on by AAA did not come from
Martin-de-Nicolas’s actual policy, that there is a
genuine issue of material fact precluding summary

6a
judgment, and that AAA’s no-evidence motion for
summary judgment did not identify the essential
elements for which there was no evidence, and Martin-de-Nicolas also included in his response an objec­
tion to having a visiting judge preside over the sum­
mary-judgment proceedings. As support for his claim
that AAA was relying on the wrong policy when mov­
ing for summary judgment, Martin-de-Nicolas at­
tached to his response to the motion for summary
judgment certified documents from the Commis­
sioner of Insurance consisting “of copies of the AAA .
. . Personal Automobile Insurance Policy approved”
for the year in question that Martin-de-Nicolas ob­
tained after filing an open-records request. The lan­
guage of the pertinent portion of the policy differs
from the language of the policy that AAA attached in
its motion.
After reviewing the motion and the response, the
county court at law issued an order granting the mo­
tion for summary judgment without specifying
whether it was granting the motion on no-evidence
or traditional grounds.
Martin-de-Nicolas appeals the order by the
county court at law.
[page 5]
STANDARD OF REVIEW AND
GOVERNING LAW
“We review the granting of a motion for summary
judgment de novo.” Merriman v. XTO Energy, Inc.,
407 S.W.3d 244, 248 (Tex. 2013). “When the trial
court does not specify the grounds for its ruling, a

7a
summary judgment must be affirmed if any of the
grounds on which judgment is sought are meritori­
ous.” Id. “When a party moves for summary judg­
ment on both traditional and no-evidence grounds,”
reviewing courts “first address the no-evidence
grounds . . . because if the non-movant fails to pro­
duce legally sufficient evidence to meet his burden as
to the no-evidence motion, there is no need to ana­
lyze whether the movant satisfied its burden under
the traditional motion.” Id. (internal citation omit­
ted).
“After adequate time for discovery, a party with­
out presenting summary judgment evidence may
move for summary judgment on the ground that
there is no evidence of one or more essential ele­
ments of a claim or defense on which an adverse
party would have the burden of proof at trial,” and
“[t]he motion must state the elements as to which
there is no evidence.” Tex. R. Civ. P. 166a(i). “No­
evidence summary judgments are reviewed under
the same legal sufficiency standard as directed ver­
dicts.” Merriman, 407 S.W.3d at 248. “Under that
standard, evidence is considered in the light most fa­
vorable to the nonmovant, crediting evidence a rea­
sonable jury could credit and disregarding contrary
evidence and inferences unless a reasonable jury
could not.” Id. The nonmovant has the burden of
producing summary-judgment evidence “‘raising a
genuine issue of material fact’” for each challenged
element. Johnson v. Brewer & Pritchard, P.C., 73
S.W.3d 193,206 (Tex. 2002) (quoting Tex. R. Civ. P.
166a(i)). A no-evidence challenge will be sustained
when “‘(a) there is a complete absence of evidence of
a vital fact, (b) the court is barred by rules of law
[page 6]

8a
or of evidence from giving weight to the only evi­
dence offered to prove a vital fact, (c) the evidence
offered to prove a vital fact is no more than a mere
scintilla, or (d) the evidence conclusively establishes
the opposite of the vital fact.’” King Ranch, Inc. v.
Chapman, 118 S.W.3d 742, 751(Tex. 2003) (quoting
Merrell Dow Pharms., Inc. v. Havner, 953 S.W.2d
706, 711 (Tex. 1997)).
In a traditional summary-judgment motion, the
movant has the burden of showing that there is no
genuine issue of material fact and that it is entitled
to judgment as a matter of law. See Tex. R. Civ. P.
166a(c); Browning v. Prostok, 165 S.W.3d 336, 344
(Tex. 2005). We take as true evidence favorable to
the nonmovant and resolve all doubts in its favor.
Little v. Texas Dep’t of Criminal Justice, 148 S.W.3d
374, 381 (Tex. 2004); Harwell v. State Farm Mut.
Auto. Ins. Co., 896 S.W.2d 170, 173 (Tex. 1995). The
movant is entitled to summary judgment if the evi­
dence disproves, as a matter of law, at least one ele­
ment of each of the plaintiffs causes of action or con­
clusively establishes each element of an affirmative
defense. Friendswood Dev. Co. v. McDade& Co., 926
S.W.2d 280, 282 (Tex. 1996); See Ryland Grp., Inc. v.
Hood, 924 S.W.2d 120, 121(Tex. 1996).
Resolving the issues presented in this appeal re­
quires an evaluation of the terms of the insurance
policy that Martin-de-Nicolas had with AAA. “Insur­
ance policies are contracts and therefore are con­
trolled by rules of construction applicable to con­
tracts generally.” Columbia Cas. Co. v. CP Natl, Inc.,
175 S.W.3d 339, 343 (Tex. App.—Houston [1st Dist.]
2004, no pet.). “The construction of an unambiguous
contract is a question of law for the court,” which we
review de novo. Tawes v. Barnes, 340 S.W.3d 419,

9a
425 (Tex. 2011). “A contract is not ambiguous simply
because the parties disagree over its meaning.”
Dynegy Midstream Servs., Ltd. P’ship v. Apache
Corp., 294 S.W.3d 164, 168 (Tex. 2009). Rather, a
contract is ambiguous only when “its meaning
[page 7]
is uncertain and doubtful or is reasonably suscepti­
ble to more than one interpretation.” Heritage Res.,
Inc. v. NationsBank, 939 S.W.2d 118, 121 (Tex.
1996). “If only one party’s construction is reasonable,
the policy is unambiguous and we will adopt that
party’s construction.” RSUI Indem. Co. v. The Lynd
Co., 466 S.W.3d 113, 118 (Tex. 2015). “But if both
constructions present reasonable interpretations of
the policy’s language, we must conclude that the pol­
icy is ambiguous.” Id. In that circumstance, “we must
resolve the uncertainty by adopting the construction
that most favors the insured.” National Union Fire
Ins. Co. of Pittsburgh, Pa. v. Hudson Energy Co., 811
S.W.2d 552,555 (Tex. 1991).
“When discerning the contracting parties’ intent,
courts must examine the entire agreement and give
effect to each provision so that none is rendered
meaningless.” Tawes, 340 S.W.3dat 425. When per­
forming this review, no single provision will be given
controlling effect; instead, all of the provisions must
be considered in light of the whole agreement. Id. “In
construing a written contract, the primary concern of
the court is to ascertain the true intentions of the
parties as expressed in the instrument.” Valence Op­
erating Co. v. Dorsett, 164 S.W.3d 656, 662 (Tex.
2005). Accordingly, we “give contract terms their
plain and ordinary meaning unless the instrument
indicates the parties intended a different meaning.”

10 a
Apache Corp., 294 S.W.3d at 168. “When construing
an insurance policy, we are mindful of other courts’
interpretations of policy language that is identical or
very similar to the policy language at issue.” RSUI
Indent. Co., 466 S.W.3d at 118.
DISCUSSION
On appeal, Martin-de-Nicolas generally contends
that the county court at law erred by granting AAA’s
“motion for traditional and no-evidence summary
judgment.” After listing this
[page 8]
general issue, Martin-de-Nicolas presents seven
more specific subissues that he contends fall within
this general issue. Regarding the extent to which the
county court at law granted the no-evidence motion,
Martin-de-Nicolas argues that the county court at
law erred because “AAA’s no-evidence motion for
summary judgment is fatally flawed in that it failed
to specifically state the essential element(s) of [his]
theories of recovery as to which it alleged there is no
evidence” and because AAA abused and delayed “the
discovery process by frivolously objecting to all dis­
covery requests and using the summary judgment
procedure to circumvent discovery.” Regarding the
extent to which the county court at law granted the
traditional summary-judgment motion, Martin-deNicolas asserts that if the county court at law con­
strued the insurance policy in the manner suggested
by AAA, the county court at law erred because Martin-de-Nicolas’s construction of the policy “is the only
one which does not do violence to the rides of law or
rules of contract construction” regardless of whether
the language of the policy is ambiguous or unambi­
guous. In addition, Martin-de-Nicolas argues that

11a
the county court at law’s ruling was improperly
based on evidence that AAA “fraudulently produced”
when moving for summary judgment and on grounds
relating to the Jones lawsuit that are separate and
distinct from the issues present in this case. Next,
Martin-de-Nicolas urges that the grounds upon
which AAA sought summary judgment “required
AAA to first file special exceptions” and required the
county court at law “to sustain” the special excep­
tions before the complaints “could be raised via a mo­
tion for summary judgment.” Finally, Martin-deNicolas insists that the county court at law’s order
must be reversed because he “timely objected to hav­
ing the summary judgment proceeding presided
[over] by a visiting judge” but that “a visiting judge
presided over the summary judgment hearing and
signed the summary judgment order” over his objec­
tions.
[page 9]
No-Evidence Motion for Summary Judgment
As set out above, in his fifth subissue, Martin-deNicolas contends that AAA’s allegation in its no­
evidence motion for summary judgment that “there
is no evidence” that AAA“ committed fraud” or “vio­
lated the Texas Deceptive Trade Practices Act” or
“Chapter 541 of the Texas Insurance Code” did not
sufficiently identify the elements of Martin-deNicolas’s claims for which there was no evidence and,
accordingly, argues that the county court at law
erred by granting the no-evidence motion. See Tex.
R. Civ. P. 166a(i). In his third subissue, Martin-deNicolas asserts that the county court at law erred by
granting the no-evidence motion for summary judg­
ment because the motion was granted before there

12 a
had been an “adequate opportunity for discovery” as
required by Rule of Civil Procedure 166a(i) and be­
cause AAA abused the discovery process by refusing
to respond to discovery requests before moving for
summary judgment on no-evidence grounds. See id.;
see also Tempay, Inc. v. TNT Concrete & Constr.,
Inc., 37 S.W.3d 517, 520-21 (Tex. App.—Austin 2001,
pet. denied) (noting that “[w]hen a party contends
that it has not had an adequate opportunity for dis­
covery before a summary-judgment hearing, it must
file either an affidavit explaining the need for further
discovery or a verified motion for continuance” and
that goal of judicial economy found in Rule 166a is
balanced “with the safeguard that nonmovants been
titled to” adequate amount of time for discovery).
As will be set out below, we ultimately determine
that the county court at law did not err by granting
the motion on traditional summary-judgment
grounds. Accordingly, we need not consider whether
the no-evidence portion of AAA’s motion for sum­
mary judgment could also support the judgment. See
Tex. R. App. P. 47.1.
[page 10]
Traditional Motion for Summary Judgment
Different Versions of the Insurance Policy
In his first subissue on appeal, Martin-de-Nicolas
insists that the policy that AAA attached to its sum­
mary-judgment motion did not contain the same
terms as the policy issued to him and, therefore, had
no applicability to this case. Further, Martin-deNicolas notes that after AAA moved for summary
judgment, he filed a response and attached to his re­
sponse a copy of the actual insurance policy from

13 a
AAA in effect at the time of the accident that he ob­
tained from the Department of Insurance and that
was certified by the Commissioner of Insurance.
Moreover, Martin-de-Nicolas urges that the county
court at law improperly made its summary-judgment
ruling based on the terms of the policy submitted by
AAA.
The language of the policy attached by AAA to its
motion for summary judgment provided, in relevant
part, as follows: “We will pay damages for bodily in­
jury or property damage for which any covered per­
son becomes legally responsible because of an auto
accident. . . . We will settle or defend, as we consider
appropriate, any claim or suit asking for these dam­
ages.” The language of the policy relied on by Martinde-Nicolas provided, in relevant part, as follows:
1. We will pay damages for which any insured is
legally liable because of bodily injury or prop­
erty damage caused by an auto accident.
2. We will defend any suit claiming damages un­
der Part I. We will defend suit even if the allega­
tions are groundless, false [,] or fraudulent.
4. We may settle any claim or suit as we think
appropriate.
[page 11]
On appeal, Martin-de-Nicolas notes the differ­
ences in the language used in the two policies offered
during the summary-judgment proceedings and fur­
ther argues that the policy offered by AAA had policy
numbers within it corresponding both to his policy
and to the policy of another individual. Further,

14 a
Martin-de-Nicolas observes that the copy of the pol­
icy submitted to the justice court was certified by a
different AAA employee than the copy of the policy
submitted by AAA to the county court at law and
notes that AAA failed to provide “any explanation for
the need to corrector amend.” Moreover, Martin-deNicolas urges that the policy that he presented is the
true version of the policy that he purchased and con­
tains the obligatory language framing his contention
that AAA did not have the authority to settle the
claim with Jones.
In fight of the preceding, Martin-de-Nicolas con­
tends that AAA’s grounds for summary judgment
were dependent on the language from the policy that
it submitted as summary-judgment evidence and
that AAA fabricated the policy in order to obtain
summary judgment. Furthermore, Martin-de-Nicolas
asserts that as a result of the language of the policy
having been contradicted by the version certified by
the Commissioner of Insurance, AAA failed to meet
its burden of establishing that there were no genuine
issues of material fact. In response, AAA indicates in
its appellee’s brief that there was a dispute as to
which policy was in effect when the car accident oc­
curred but contends that it was entitled to summary
judgment regardless of which policy language ap­
plied.
As an initial matter, we note that the language of
both policies was before the county court at law when
it made its summary-judgment ruling. In addition,
we note that although the structure of the language
of the policies differed slightly, the language of the
relevant portions of the two policies setting out
AAA’s obligations is nearly identically worded. Ac­
cordingly, although

15 a
[page 12]
there could conceivably have been some dispute re­
garding which of the two policies actually applied to
the accident at issue, we cannot agree with Martinde-Nicolas’s assertion that the existence of the two
policies meant that there was a genuine issue of ma­
terial fact regarding whether AAA was authorized to
settle the underlying claim because both policies
seem to impose the same requirements and obliga­
tions on AAA. In other words, a determination re­
garding whether AAA was authorized to settle the
claim would not seem to depend on which of the two
policies was in effect at the time of the accident.
However, in light of Martin-de-Nicolas’s assertion
that the certified version of the policy that he sub­
mitted was the true policy and did not authorize
AAA’s actions in this case, we will assume for the
sake of argument that Martin-de-Nicolas presented
the correct policy in his response and will refer to
this version of the policy when addressing the re­
mainder of Martin-de-Nicolas’s subissues.
For these reasons, we overrule Martin-deNicolas’s first subissue on appeal.
Construction of Policy Terms
In his second subissue, Martin-de-Nicolas argues
that the county court at law erred by granting the
traditional portion of the motion for summary judg­
ment because the terms of the insurance policy did
not authorize AAA to pay a claim made by Jones re­
garding the accident. When presenting this subissue,
Martin-de-Nicolas acknowledges AAA’s assertion
that the terms of the policy authorized AAA to settle
claims that it deemed appropriate and then contends
that the policy must “be ambiguous because he in-

16 a
terprets the policy as not conferring the right to
‘chose to settle’” and must, therefore, be construed in
his favor. Alternatively, Martin-de-Nicolas asserts
that his
[page 13]
“policy interpretation is the only one which gives ef­
fect to all policy provisions and will not do violence to
rules of law or policy construction.”
When presenting his construction arguments on
appeal, Martin-de-Nicolas points to the language
stating that AAA will pay for damages for which an
insured “is legally liable” and urges that “the only
way to become legally responsible [or liable] for dam­
ages is if the determination is made by applying
Texas law to the facts of an accident.” Further, Martin-de-Nicolas contends that under the terms of the
policy, AAA was required to investigate and deter­
mine, on its own, whether its policyholder was le­
gally responsible for the damages. In addition, Martin-de-Nicolas argues that under the policy, AAA
may only pay for damages after it determines that a
policyholder is legally responsible for the damages
and that AAA may “not pay for damages where the
[policyholder] is not legally liable because those
damages are not covered by the policy.” When apply­
ing that construction to the present case, Martin-deNicolas insists that AAA should have determined for
itself that he was not legally responsible because
Jones was negligent per se for parking his car in the
wrong direction and, therefore, should have refused
to pay any damages claimed by Jones.2
Although Martin-de-Nicolas offers an interpreta­
tion of what he believes AAA’s obligations are under
the terms of the policy, AAA offers another construe-

17 a
tion of the relevant provisions of the contract. Spe­
cifically, AAA argues that the policy obligates AAA to
pay for damages

2 In his brief, Martin-de-NicoIas refers to various provisions
of the Transportation Code specifying that an insurance com­
pany “may settle a claim covered by the policy,” See Tex.
Transp. Code § 601.073(e), and that a “liability insurance policy
must. . . pay . . . amounts the insured becomes obligated to pay
as damages,” See id. §§ 601.076, .077. Based on those provi­
sions, Martin-de-Nicola savers that “an insurance company may
not settle claims that are not covered by the policy—namely
those where the insured is not legally obligated to pay.” How­
ever, we do not read these statutes as prohibiting the settle­
ment of claims by an insurance company under the circum­
stances present here.

[page 14]
that its insured is “legally liable” for, meaning that
AAA is obligated to pay damages after a legal deci­
sion by a court or other adjudicative body has deter­
mined that AAA’s policyholder was responsible for
causing the damages. Moreover, AAA asserts that in
addition to obligating AAA to pay after a judicial de­
termination has been made, the policy authorizes
AAA to settle claims or suits without the need for a
legal determination of responsibility to avoid the ex­
pense of litigation when it determines that settling is
“appropriate.”
When construing the policy at issue, we note as
an initial matter that Martin-de-Nicolas’s construc­
tion would prohibit AAA from paying on a claim after
making its own assessment of the claim even if, as

18 a
happened in the first suit filed by Martin-de-Nicolas,
a trial court has determined that its policyholder
caused the damages and was legally liable. That con­
struction would run contrary to the statutory re­
quirement imposed on insurers to pay damages that
a policy holder has “become legally obligated to pay.”
See Tex. Transp. Code §§ 601.076, .077. Moreover,
Martin de-Nicolas’s interpretation, unlike AAA’s,
does not give effect to all of the provisions of the pol­
icy and essentially renders the settlement clause
meaningless. Further, AAA’s construction is consis­
tent with the plain meaning of the provisions requir­
ing AAA to pay when an insured is legally liable for
damages and empowering AAA with the discretion to
settle suits or claims where “appropriate.” See Li­
able, Black’s Law Dictionary 998 (9th ed. 2009) (de­
fining “liable” as meaning “[responsible or answerable in law; legally obligated”). In addition, as set out
below, AAA’s interpretation is consistent with the
construction given by appellate courts considering
other types of insurance policies.
For example, in Dear v. Scottsdale Insurance
Company, our sister court of appeals was faced with
an issue regarding whether a provision in a profes­
sional-liability insurance policy
[page 15]
authorizing an insurer “to settle any claim or suit as
it ‘deems expedient’” authorized the insurer to settle
claims within the liability limits without the ap­
proval of the insured. 947 S.W.2d 908, 911,913-14
(Tex. App.—Dallas 1997, writ denied), disapproved of
on other grounds by Apex Towing Co. v. Tolin, 41
S.W.3d 118, 122-23 (Tex. 2001) (disavowing portion
of Dear decision potentially deciding that tolling rule

19 a
should not apply to certain legal-malpractice cases).
On appeal, our sister court determined that the lan­
guage of the policy “unambiguously vest[ed] [the in­
surance comp any] with an absolute right to settle
third-party claims in its own discretion and without
[the policyholder]’s consent, even if the allegations of
the suit are groundless, false, or fraudulent.” Id. at
913-14. Further, the court explained that “[b]y pur­
chasing an insurance policy that did not provide him
the right to veto settlement of third-party claims,
[the policyholder] gave up the right to complain that
any settlement [the insurance company] entered
somehow damaged him.” Id. at 914. In addition, the
court concluded that the insurer owed the insured
“no duty of good faith and fair dealing” regarding its
investigation of the claim and its decision to settle.
Id. Finally, the court determined that the insurer
“had an unambiguous contractual right to settle the
claims asserted against [the policyholder]and that it
cannot be liable under any theory for exercising that
right.” Id. at 915. Relying on Dear, that same court
later construed the terms of an automobile-insurance
policy authorizing the insurance company to “‘inves­
tigate and settle any claim or suit as [the insurance
company] considers] appropriate’” and concluded
that the language “vested [the insurance company]
with an absolute right to settle third party claims
based on its own discretion” and did not require the
policyholder’s “consent for a settlement.” Stevens
Transp., Inc. v. National Conti Ins. Co., No. 05-9800244-CV, 2000 WL 567225, at *1, *3 (Tex. App.—
Dallas May 11, 2000, no pet.) (not designated for
publication).
[page 16]

20 a
A similar conclusion was reached by another one
of our sister courts of appeals when it was asked to
construe the terms of a worker’s compensation pol­
icy. See Wayne Duddlesten, Inc. u. Highland Ins. Co.,
110 S.W.3d 85, 89-90 (Tex. App.—Houston [1st Dist.]
2003, pet. denied). In that case, the terms of the pol­
icy provided, in relevant part, that the insurance
company “‘will pay promptly when due the benefits
required of you by the Worker’s Compensation law’”;
had ‘“the right and duty to defend at our expense any
claim, proceeding[,] or suit against you for benefits
payable by this insurance’”; and had “‘the right to in­
vestigate and settle these claims [Jprocee dings [,] or
suits.’” Id. at 90. The policyholder argued that the
insurer violated the terms of the policy by settling
“claims that should not have been covered by the pol­
icy.” Id. When resolving the issue on appeal, our sis­
ter court determined that if the insurance company
exercised its right under the policy “to settle a claim,
then payment will be required” under the remaining
portions of the policy. Id. Further, the court noted
that there was “no requirement in the policy that
[the insurance company] obtain the consent of [the
policyholder] when settling a claim or investigating
the merits of a claim” and that the insurance com­
pany’s “discretion in investigating and settling
claims is not contractually limited.” Id.
For all of these reasons, we conclude that the
terms of the policy are not ambiguous and that the
policy affords AAA the discretion to settle claims
made against its insured, including the claim at is­
sue, without the insured’s consent and without the
need for a judicial determination regarding whether
its insured was legally liable for the damages. Ac­
cordingly, we overrule Martin de-Nicolas’s second

21a
subissue on appeal.3

3

As further support for his construction of the insurance
policy, Martin-de-Nicolas asserts that if an insurance company
“had the right to ‘choose to settle’ for whatever reason,” then
“an insurance company who insures both parties in a two-car
accident could systematically ‘choose to settle’ with the party
who has the lowest damages; thus systematically assuring [it­
self] the lowest payouts and the highest profits possible.” As an
initial matter, we note that the potential for this possibility
would seem to exist in the circumstance in which both insureds
only had liability coverage. More importantly, even if an insurer
settled the claim for the lower payout, the dissatisfied driver
could still sue the driver who settled and seek a legal determi­
nation that the settled driver was legally responsible for the
damages and thereby seek recovery from the insurance com­
pany, which would be legally obligated to cover damages
awarded by the trial court under the terms of the insurance policy.

[page 17]
Special Exceptions
In his fourth subissue on appeal, Martin-deNicolas contends that the county court at law should
not have granted the traditional motion for summary
judgment because AAA was required to but did not
file special exceptions pointing out any defects in
Martin-de-Nicolas’s pleadings before seeking sum­
mary judgment. See Tex. R. Civ. P. 91 (stating that
“[a] special exceptions hall not only point out the
particular pleading excepted to, but it shall also
point out intelligibly and with particularity the de­
fect, omission, obscurity, duplicity, generality, or
other insufficiency in the allegations in the pleading

22 a
excepted to”); see also Centennial Ins. Co. v. Commer­
cial Union Ins. Cos., 803 S.W.2d 479, 482 (Tex.
App.—Houston [14th Dist.] 1991, no writ) (noting
“that the protective features of the special exception
procedure should not be circumvented by a motion
for summary judgment on the pleadings or other
means where a plaintiffs pleadings fail to state a
cause of action”). Stated differently, Martin-deNicolas contends that the basis of AAA’s traditional
motion for summary judgment was that he failed to
state a claim upon which he could recover and fur­
ther argues special exceptions must be filed before
summary judgment can be granted on those grounds.
In its motion for summary judgment, AAA did not
assert that it was entitled to summary judgment be­
cause there was a defect or other insufficiency in
Martin-de-Nicolas’s
[page 18]
pleadings; rather, it asserted that it was entitled to
judgment as a matter of law because “no recognized
cause of action” authorized recovery under the facts
of this case. More specifically, AAA argued that Martin-de-Nicolas’s claims are based on his interpreta­
tion of the insurance policy; that the express terms of
the insurance policy authorized AAA to, “within its
discretion, settle a claim made against the policy”;
and that “an insurer paying a claim within its discre­
tion, though the insured disagrees with the decision
to pay, is not a violation of any law.” In other words,
AAA asserted that it was entitled to summary judg­
ment, as a matter of law, because the terms of the

23 a
policy authorized the disputed payment and “did not
seek summary judgment on the basis that [Martin
de-Nicolas] failed to state a cause of action or any
other pleading deficiency.” See Williams v. Adventure
Holdings, L.L.C., No. 05-12-01610-CV, 2014 WL
1607374, at *2 (Tex. App.—Dallas Apr. 22, 2014, pet.
denied) (mem. op.). Accordingly, we cannot conclude
that the county court at law erred when it granted
AAA’s motion for summary judgment “because the
motion was not attempting to circumvent the filing of
special exceptions.” See id.; see also Friesenhahn v.
Ryan, 960 S.W.2d 656, 658 (Tex. 1998) (explaining
that “[s]ummary judgment may ... be proper if a
pleading deficiency is of the type that could not be
cured by an amendment”); Champion Printing &
Copying LLC v. Nichols, No. 03-15-00704-CV, 2017
WL 3585213, at *16 (Tex. App.—Austin Aug. 18,
2017, pet. denied) (mem. op.) (determining that “spe­
cial exceptions were not required and summary
judgment was appropriate”).
For these reasons, we overrule AAA’s fourth su­
bissue.
[page 19]
Separate Matters
In his sixth subissue, Martin-de-Nicolas argues
that AAA improperly included details from his law­
suit against Jones in its motion for summary judg­
ment and urges that “if summary judgment was
granted on those extrinsic details, it was improperly
granted.” See Stephens v. LNV Corp., 488 S.W.3d
366, 374 (Tex. App.—El Paso 2015, no pet.) (provid­
ing that “‘[a] motion for summary judgment must it­
self expressly present the grounds upon which it is
made, and must stand or fall on these grounds

24 a
alone’” (quoting Science Spectrum, Inc. v. Martinez,
941 S.W.2d 910, 912(Tex. 1997))). More specifically,
Martin-de-Nicolas contends that the details and the
verdict pertaining to his lawsuit against Jones “are
immaterial to the case at hand.” Alternatively, Mar­
tin de-Nicolas insists that if “it would have been
proper to tie the fate of’ the two cases together, AAA
should have but failed to request that the cases be
consolidated. See Tex. R. Civ. P. 174(a)(authorizing
trial courts to consolidate cases “involving a common
question of law or fact”).
Although AAA mentioned some of the underlying
facts and procedural aspects of the lawsuit against
Jones in its summary-judgment motion, the grounds
upon which it sought summary judgment were inde­
pendent of the outcome or underlying facts of the
lawsuit against Jones. Moreover, as previously dis­
cussed above, AAA urged that summary judgment
was warranted in this case because the insurance
policy provided AAA with the discretion to settle
claims, and we previously determined that AAA’s
construction of the terms of the policy was reason­
able and correct. Accordingly, we cannot conclude
that the county court at law’s summary-judgment
ruling was improperly based on extrinsic facts, and
we overrule Martin-de-Nicolas’s sixth subissue on
appeal.
[page 20]
Objection to Presiding Judge
In his final subissue on appeal, Martin-de-Nicolas
contends that summary judgment was improperly
granted in this case because before the county court
at law made its ruling, he filed a written objection to
the case being presided over by a visiting judge.

25a
At the end of his response to AAA’s motion for
summary judgment, Martin-de-Nicolas included the
following request and objection:
Plaintiff hereby respectfully objects to this or
any other motion being heard or decide [d] by
a visiting judge. Plaintiff respectfully re­
quests that it be the elected judge of the
court □ who hears and rules on this and any
future motion or trial.
On appeal, Martin-de-Nicolas contends that in light
of his request, the presiding judge should have been
removed from the case under section 74.053 of the
Government Code. See Tex. Gov’t Code § 74.053.
Section 74.053 does allow parties to object to a
judge who has been assigned to preside over a trial
and who is not the duly-elected or appointed judge
for that trial court. Id. In particular, the provision
states that “[i]f a party to a civil case files a timely
objection to the assignment, the judge shall not hear
the case.” Id. § 74.053(b). “Unlike disqualification of
a judge based on a constitutional prohibition, which
can be raised at any point in a proceeding, a statu­
tory basis for recusal of a judge can be waived.”
Sweetwater Austin Props., L.L.C. v. SOS All., Inc.,
299 S.W.3d 879, 890 (Tex. App.—Austin 2009, pet.
denied). In other words, “[bjecause the prohibition
from hearing a case under section 74.053 is non con­
stitutional, . . . the objection is waivable and must be
presented and ruled upon to trigger any mandatory
prohibition.” Texas Emp’t Comm’n u. Alvarez, 915
S.W.2d 161, 165 (Tex. App.—Corpus Christi 1996, no
writ) (emphasis added).

26 a
[page 21]
Nothing in the record before this Court indicates
that Martin-de-Nicolas made any attempt to present
his objection or have it ruled upon by the presiding
judge. Accordingly, we must conclude that the al­
leged error has not been preserved for appellate con­
sideration and overrule Martin-de-Nicolas’s final su­
bissue on appeal. See id. at 166 (concluding that
party waived written objection under section 74.053
“by proceeding to trial without first presenting its . . .
objection and obtaining a ruling from the assigned
judge”); See also Tex. R. App. P. 33.1(a) (setting out
requirements for preserving “a complaint for appel­
late review”). But See Lone Star Indus., Inc. v. Ater,
845 S.W.2d 334, 336 (Tex. App.—El Paso 1992, no
writ) (observing that “[s]ince the question of the
qualification of a retired judge to serve on assign­
ment is a jurisdictional question, it cannot be waived
and can be raised at any time”).4

4 When asserting that it was 4 error for the visiting judge to
render summary judgment after he filed his objection, Martinde-Nicolas primarily relies on NCF, Inc. v. Harless, 846 S.W.2d
79 (Tex. App.—Dallas 1992, orig. proceeding). In that case, a
party sought mandamus relief after seeking to remove under
section 74.053 a judge who had been assigned to the case. Id. at
80. When discussing the applicable law, our sister court of ap­
peals noted that “[o]nce a party makes a timely objection under
section 74.053, disqualification of the assigned judge is auto­
matic, and any subsequent orders that he issues are nullities.”
Id. at 81. Then, the court determined that the party was enti­
tled to mandamus relief because the trial judge’s disqualifica­
tion was mandatory. Id. at 83.
We believe that Martin-de-Nicolas’s reliance on NCF is

27 a
misplaced. As an initial matter, we note that this case does not
involve a situation in which the party sought to enforce its ob­
jection to the assigned judge by filing a petition for writ of man­
damus. Further, to the extent that the language from the opin­
ion by our sister court of appeals can be read as suggesting that
the fifing of an objection to an assigned judge under section
74.053, without more, results in automatic disqualification and
renders any ruling rendered after the objection void, we believe
that this language is inconsistent with the language of the sub­
sequent opinion discussed above indicating that an objection
under section 74.053 can be waived by inaction. See Texas
Emp’t Comm’n v. Alvarez, 915 S.W.2d 161,165 (Tex. App.—
Corpus Christi 1996, no writ). In any event, we are not bound
by the analysis from our sister court.

[page 22]
For all the reasons previously given, we must
conclude that the county court at law did not err by
granting AAA’s traditional motion for summary
judgment.6
CONCLUSION
Having determined that the county court at law
did not err by granting AAA’s traditional motion for
summary judgment, we affirm the order of the
county court at law granting AAA’s motion for sum­
mary judgment.
David Puryear, Justice
Before Justices Puryear, Pemberton, and Bourland
Affirmed

28 a
Filed: April 19, 2018

6 In his reply brief, Martin-de-Nicolas presents fifteen sepa­
rate objections to AAA’s appellee’s brief, ranging from attacks
on AAA’s statement of the case and bst of the issues presented
to attacks on the argument section of AAA’s brief. In resolving
the issues presented on appeal, it is not necessary to make any
formal ruling regarding these challenges, but those challenges
were considered when framing this opinion.

29 a
TEXAS COURT OF APPEALS,
THIRD DISTRICT, AT AUSTIN

JUDGMENT RENDERED APRIL 19, 2018

NO. 03-17-00054-CV

Juan A. Martin-de-Nicolas,
Appellant
v.
AAA Texas County Mutual Insurance
Company,
Appellee
APPEAL FROM COUNTY COURT AT LAW NO. 2
OF TRAVIS COUNTY
BEFORE JUSTICES PURYEAR, PEMBERTON,
AND BOURLAND
AFFIRMED - OPINION BY JUSTICE PURYEAR
This is an appeal from the judgment signed by
the trial court on October 26, 2017. Having reviewed
the record and the parties’ arguments, the Court
holds that there was no reversible error in the judg­
ment. Therefore, the Court affirms the trial court’s
judgment. Appellant shall pay all costs relating to
this appeal, both in this Court and the court below.

30 a
Notice: Texas Supreme Court
( Petition for Review—Denied )
FILE COPY
RE: Case No. 18-0713
DATE: 1/25/2019
COA#: 03-17-00054-CV TC#: C-l-CV-16-003312
STYLE: MARTIN-DE-NICOLAS v. AAA TEX.
CNTY. MUTUAL INS. CO.
Today the Supreme Court of Texas denied the peti­
tion for review in the above-referenced case.

(

31a
Notice: Texas Supreme Court
( Motion for Rehearing—Denied )
FILE COPY
RE: Case No. 18-0713
DATE: 5/3/2019
COA#: 03-17-00054-CV TC#: C-l-CV-16-003312
STYLE: MARTIN-DE-NICOLAS v. AAA TEX.
CNTY. MUTUAL INS. CO.
Today the Supreme Court of Texas denied the motion
forrehearing of the above-referenced petition for re­
view.

V

32 a
CONSTITUTIONAL & STATUTORY
PROVISIONS
U.S. Const, amend V. No person shall [...] be de­
prived of life, liberty, or property, without due proc­
ess of law, nor shall private property be taken for
public use, without just compensation. 43
U.S. Const, amend IX. The enumeration in the
Constitution, of certain rights, shall not be construed
by it to deny or disparage others retained by the peo­
ple. 44
U.S. Const, amend XTV, § 1. No State shall [...] de­
prive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws. 46
49 CFR § 571.108, f S4—Definitions. Reflex Re­
flectors are devices used on vehicles to give an indi­
cation to approaching drivers using reflected light
from the lamps of the approaching vehicle.
49 CFR § 571.108, f S8.1—Reflex reflectors, [per­
formance standards and test procedures] for: Num­
ber, Color, Mounting location, Mounting height, Ac­
tivation, Effective projected luminous lens area,
Visibility, Indicator Markings Spacing to other lamps
or reflective devices, Photometry, Physical tests, Al­
ternative side Reflex Reflector material.

43 U.S. Const, amend. V.
44 U.S. Const, amend. IX. (said to mean that no one shall be
denied their basic constitutional rights).
45 U.S. Const, amend. XIV, § 1. (the incompetence of Texas
courts deprived petitioner of his procedural due process, has
cost him economic loss (property), and has not been afforded
equal protection under the laws).

33 a
INSURANCE POLICY LANGUAGE
Old Policy—Fraudulent SJ Evidence
PART I LIABILITY.
COVERAGE A - BODILY INJURY
COVERAGE B - PROPERTY DAMAGE
OUR PROMISE TO YOU-COVERAGES A AND B
(A) We will pay damages for bodily injury or prop­
erty damage for which any covered person becomes
legally responsible because of an auto accident.
Property damage includes loss of use of the dam­
aged property. Damages include prejudgment inter­
est awarded against the covered person. We will set­
tle or defend, as we consider appropriate, any claim
or suit asking for these damages. In addition to our
limit of liability, we will pay all defense costs we in­
cur. Our duty to settle or defend ends when our
limit of liability for this coverage has been ex­
hausted.
Current Policy
PART I LIABILITY

(

COVERAGE A - BODILY INJURY
COVERAGE B - PROPERTY DAMAGE OUR
PROMISE TO YOU—COVERAGES A AND B.

/

(1) We will pay damages for which any insured is
legally liable because of bodily injury or property
damage cause by an auto accident. [...].
(2) We will defend any suit claiming damages cov­
ered under PART I. We will defend suit even if the
allegations are groundless, false or fraudulent. [...].
(3) We have no duty to defend any suit or settle
any claim for bodily injury or property damage not
covered by this policy.
(4) We may settle any claim or suit as we think
appropriate

/

/

